CERTIFICATE OF SERVICE
No. TBD
Robel Bing
Petitioner,
v.
Brivo Systems, LLC
Respondent.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That 1 am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Robel
Bing Petition for Writ of Certiorari, by mailing one (1) true and correct copy of the same by
Fedex 2 day for delivery to the following addresses: ‘
Edward S. Schenk, III
Williams Mullen
P.O. Box 1000
Raleigh, NC 27602
(919) 981-4303
eschenk@williamsmullen.com
Counselfor Brivo Systems, LLC

November 27, 2020
SCP Tracking: Bing-3506 Decatur Ave-Cover White

>?■ f

